OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
PRIMARY HEALTH CARE
PROJECT IN IRAQ

AUDIT REPORT NO. 6-267-13-013-P
JUNE 16, 2013




CAIRO, EGYPT
Office of Inspector General



June 16, 2013

MEMORANDUM

TO:       	          USAID/Iraq Mission Director, Thomas Staal

FROM: 	              Regional Inspector General/Cairo, Catherine M. Trujillo /s/

SUBJECT:	            Audit of USAID/Iraq’s Primary Health Care Project in Iraq
                     (Report No. 6-267-13-013-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them, without attachments, in Appendix II.

The report includes nine recommendations to assist the mission in improving its management
and oversight of USAID/Iraq's Primary Health Care Project in Iraq. Based on management’s
comments on the draft report and other information provided, we acknowledge that the mission
made management decisions on all nine recommendations and completed final action on
Recommendations 2, 4 through 7, and 9.

Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 1, 3, and 8. Recommendations 2,
4 through 7, and 9 are closed upon the issuance of this report.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street, off El-Laselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Project Deliverables Were Late, and Indicator Targets Were Not Met ................................... 5 


     Steps to Promote Sustainability in Kurdistan Were Limited .................................................... 6 


     Responsibility for Tracking Cost Share Contributions Was Not Formalized ........................... 7 


     Some Centers Did Not Know About Equipment Assessments or Their Purpose ................... 8 


     USAID/Iraq Oversight of Contract Administration Was Weak ................................................. 9 


     Performance Management and Annual Work Plans Were Not Finalized ............................. 13 


Evaluation of Management Comments................................................................................... 15 


Appendix I—Scope and Methodology .................................................................................... 17 


Appendix II—Management Comments ................................................................................... 19 


Appendix III—Status of Project Deliverables as of March 31, 2013 ..................................... 24 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
COR             contracting officer’s representative
FY              fiscal year
KRG             Kurdistan Regional Government
MOH             Iraqi Ministry of Health
RIG             Regional Inspector General
TraiNet         Training Results and Information Network
URC             University Research Company
SUMMARY OF RESULTS 

Years of war and economic sanctions have had a significant effect on the health of Iraqi
citizens. According to the Ministry of Planning, health conditions in the nation are among the
worst in the region. Furthermore, the role of primary health care centers—designed to provide
basic health care services—has not been a priority historically because of wars and other
ongoing crises. According to USAID/Iraq, an Iraqi ministry, and researchers, the Ministry of
Health (MOH) is now focusing on the centers as important venues for providing quality health
care.

To support Iraq’s efforts to improve the quality of its health care, in March 2011 USAID/Iraq
awarded University Research Company (URC) a 4-year, $74.9 million cost-plus-fixed-fee
completion contract to implement the Primary Health Care Project in Iraq. Within USAID/Iraq,
the Capacity Building Office has primary responsibility for the project. As of December 31, 2012,
the mission had obligated about $72.9 million and disbursed $15.7 million for the project. The
objective was to help MOH strengthen its primary health care delivery system so the Iraqi
Government can reach its goal of providing quality primary health care to its citizens. Activities
for this objective were divided among three components.

	 Management systems and processes for primary health care. This was designed to
   develop management systems that ensure accessible, efficient, and quality primary health
   care. Deliverables included activities to develop a national-level primary health care advisory
   group, creating resources on management of primary health care centers, and improving
   staff capacity at all levels through curriculum development and training.

	 Delivery of quality primary health care. The project and MOH collaborated to establish
   standards of care, create resources on clinical service delivery, implement quality
   improvement programs, and create a research agenda focused on strengthening the Iraqi
   primary health care system.

	 Community partnerships for primary health care. This was designed to help strengthen
   the relationship between primary health care centers and the communities they serve.
   Deliverables included developing and supporting implementation of a national statement of
   patients’ rights for primary care, creating guidelines for community participation in primary
   health care center services, and supporting training for health center staff on community
   partnerships.

URC, in collaboration with MOH, identified 360 of Iraq’s approximately 1,250 primary health
care centers and subcenters from each of the 18 governorates to participate in the project. In
November 2012 the mission modified the contract, requiring URC to procure medical equipment
for selected centers and changing the reporting periods. Thirty-six of the targeted centers—
two in each governorate—were selected as model centers and designated to receive project-
funded equipment necessary to provide essential services, such as X-ray and ultrasound
machines, stethoscopes, diagnostic kits, and thermometers.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit as part of its fiscal year
(FY) 2013 audit plan to determine whether USAID/Iraq's Primary Health Care Project was
achieving its main goals of supporting management systems and processes, delivering quality
health care, and expanding community partnerships in Iraq.


                                                                                                1
URC has made progress on the project’s three main components and has taken steps to
address the sustainability of its activities.

Management Systems and Processes. The project, in coordination with MOH, established a
national technical advisory group for quality primary health care and supported ongoing group
meetings. This group brought together multiple ministries and donors to share information on
activities affecting the delivery of primary health care and to discuss what needed to be done to
improve service delivery. The project developed and provided training to primary health care
staff on quality standards and operational guidelines to manage the centers better. It also
worked with MOH to develop and test a revised medical records system in 40 centers; based on
that testing, the system was being revised again so it could be used in additional centers.

Delivering Quality Care. As of December 2012, URC had worked with MOH and technical
experts to review or develop 15 clinical standards and protocols addressing issues such as
communicable disease control, maternal and child nutrition, hypertension, and diabetes. The
project then trained primary health care staff from the targeted centers on these standards.
However, efforts to measure the effect of this training have not yet started (page 5).

The project also developed a research agenda on relevant primary health-care topics. Based on
this agenda, the staff and MOH conducted two studies—one on recording and reporting
maternal deaths, and another on a program in Maysan Governorate designed to collect health
information. The staff also worked with MOH to identify equipment that the targeted centers
needed to improve the quality of their services.

Community partnerships. URC developed materials to help centers develop community
partnerships; as of December 2012, it had provided training on partnerships to employees from
more than 330 centers. Project employees also worked with MOH to launch a national
statement of patients’ rights in primary health care. URC gave information on these rights to
targeted centers through posters and brochures, shown in the photo below, so they could then
share the information with their employees and clients.




                  Copies of the national statement of patients’ rights in
                  primary health are available in a primary health care center
                  in Baghdad. (Photo by RIG/Cairo, February 28, 2013)




                                                                                               2
USAID/Iraq and URC also took steps to make sure these activities could be sustained in much
of Iraq by signing memorandums of understanding with MOH and the Kurdistan Regional
Government’s (KRG) Ministries of Health and Planning.1 In these memorandums, the ministries
state their intent to support and collaborate with the project and to provide cash or in-kind
support throughout its duration. In keeping with U.S. legal requirements, MOH agreed to
contribute additional funds equal to at least 50 percent of USAID’s total project costs, and, as of
March 2013, USAID/Iraq reported approximately $70 million in cost share commitments—
approximately $14 million each year through 2015. The cost share contributions have supported
a variety of activities including training and printing project materials.

Further, URC has worked to increase project results and sustainability by actively involving
MOH in the development of guidelines and materials related to primary health care services and
using MOH and center employees as project trainers. The MOH official who closely coordinates
with URC noted that the project’s guidelines were designed to meet Iraqi needs and fit within the
context of health care in Iraq. Further, by using MOH and primary health care center employees
as the primary trainers for centers, the project has created a resource for MOH to use in the
future. The MOH official said the ministry fully intends to continue to use these people to provide
training on project-developed resources to additional centers.

Information obtained during site visits suggests that the resources developed by the project and
related training were well received by primary health center employees. For example, at one
center, a staff member who participated in training on medical equipment maintenance said he
used what he learned to devise his own maintenance schedule for all of the major equipment in
the center. At another center, employees said the training helped them establish a local health
committee, made up of well-respected community members, to share health information with
the community. Since then, the employees said they had seen a change in attitude in the
community toward the health center and an increase in the use of its services.

Despite these successes, some project deliverables were late (page 5). Since deliverables to
measure the effect of project’s activities had not begun, the audit team could not determine the
project’s overall impact on Iraq’s primary health care. Additional concerns identified during the
audit are listed below.

	 Steps to promote the sustainability of the project in Kurdistan were limited (page 6). The
   project did not address language considerations when implementing activities there.

	 The mission did not include a requirement to track cost share requirements in URC’s
   contract (page 7). USAID/Iraq relies on URC to track the extent to which MOH is contributing
   its required cost share.

	 Staff members at some primary health care centers did not understand the purpose of
   equipment assessments; other centers did not receive copies of the assessments when they
   were done (page 8). URC and MOH assessed the centers as part of the project’s plan to
   provide medical equipment to them.

	 USAID/Iraq’s oversight of URC contract administration was weak (page 9). USAID/Iraq did
   not identify multiple instances in which URC either did not comply with contract requirements
   or did not pay attention to them.

1
    Kurdistan is an autonomous region composed of Erbil, Sulimaneya, and Duhouk Governorates.


                                                                                                 3
	 The project did not have performance management or annual work plans (page 13). URC
   had not developed an annual work plan for the project’s third year. Additionally, more than
   4 months after the contract was modified, USAID/Iraq had not approved a revised
   performance management plan.

The audit recommends that USAID/Iraq improve the effectiveness of the project and mission
operations by doing the following.

1. 	 Prepare a written evaluation of project deliverables to determine the extent to which they
     can be accomplished in the time remaining, and adjust the deliverables and budget based
     on the results of the evaluation (page 6).

2. 	 Issue a technical directive to University Research Company to (1) expedite the translation of
     project materials and training curricula into Kurdish, prioritizing those most needed, and
     (2) develop a protocol to confirm that future products are translated as appropriate and that
     interpretation is available for trainees if needed (page 7).

3. 	 Modify its contract with University Research Company to incorporate tracking the Ministry of
     Health’s cost share (page 8).

4. 	 Issue a technical directive requiring University Research Company to provide officials at all
     surveyed primary health care centers with the written results of the center’s assessment,
     information on the planned use of the assessment results, and names of contacts with the
     project and the Ministry of Health to be sure they are notified of significant changes at the
     primary health care center level (page 9).

5. 	 Implement procedures to confirm that (1) University Research Company is entering required
     data on in-country training in the Training Results and Information Network, and (2) mission
     staff members are monitoring that activity (page 13).

6. 	Implement procedures to confirm that (1) University Research Company is submitting
    required documents to the USAID Development Experience Clearinghouse and (2) mission
    staff members are monitoring submission (page 13).

7. 	 Issue a technical directive clarifying the expected reporting periods for project plans and
     reports (page 13).

8. 	 Document its review of the project’s electronic and hard copy files to confirm that required
     documents are in the official file, duplicate documents are removed, and drafts and final
     documents are identified clearly (page 13).

9. 	 Direct University Research Company in writing to finalize the fiscal year 2013 annual work
     plan and revised performance management plan, and that USAID/Iraq document its
     approval of these plans within 30 days of their submission (page 14).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments, without attachments, are in Appendix II, and our
evaluation of them is on page 15.




                                                                                                4
AUDIT FINDINGS 

Project Deliverables Were Late, and
Indicator Targets Were Not Met
USAID/Iraq’s contract with URC listed numerous deliverables and related deadlines. As of
December 2012, the project had not finished 16 out of 40 deliverables—40 percent—due in the
project's first and second years.2 Six of these were compliance deliverables, intended to
measure the effect of the project by measuring the extent to which materials and training
provided were used in primary health care centers. (Appendix III has additional information.)

According to the initial contract, many of the incomplete deliverables were scheduled to be done
by March 2012, the end of the first year. However, in November 2012 the mission modified the
contract and shifted the reporting period to October through September, aligning with the federal
fiscal year. As a result, URC and the mission considered the first 7 months of the contract—
March through September 2011—as the first project year. The second and third project year will
run from October through September, and the last year, which ends in February 2015, will be
17 months long.

Because the first year was shortened, many of the deliverables due during that period were
moved to the revised second year. This shift, in effect, gave URC an additional 7 months to
complete those deliverables. Yet by the end of the second year, nine deliverables moved from
the first to second year were not done. Further, URC had not started collecting information for
the project's compliance deliverables, three of which were scheduled originally to start during
the first year.

Other unfinished deliverables included activities in two areas that MOH identified as being
particularly important: quality improvement processes and improving the quality of supervision in
primary health centers.3 In both cases, URC took initial steps to work with MOH to develop
resources—required project deliverables—for each activity. Yet, as of December 2012—early in
the third year—training for health centers on the resource materials and how to put them into
practice had not started, even though it should have in the second year.

URC also had trouble meeting deadlines for several indicator targets. As of February 2013, it
reported meeting only 4 of 25 indictors (16 percent) established in its July 2012 performance
management plan and its February 2013 draft performance management plan.

URC reported multiple reasons for the delays, including staffing challenges and a focus on other
project activities. It had difficulty recruiting and retaining staff. As of the end of December
2011—10 months into the project—only 48 of 71 jobs (68 percent) were filled, although URC
anticipated filling another 11 positions (15 percent) in January 2012. It reported difficulties in
securing visas for non-Iraqi staff once the candidates were offered jobs. By March 2013, several


2
  As of March 2013, the end of the project's original second year, the project had submitted only
two additional deliverables, as shown in Appendix III.
3
  URC had developed a quality improvement system, including plans for introducing the system into
primary health centers, and a resource manual on supportive supervision, including roles and
responsibilities of supervisors and checklists they could use when monitoring employees’ performance.


                                                                                                   5
employees had left; nine resigned within a 3-month period in 2012, including the deputy chief of
party and director of quality clinical care—two key positions.

URC officials attributed some of these departures to internal management issues, and in
December 2012 they dismissed the chief of party. In March 2013 they found a candidate for the
job, whom the mission approved. However, that person subsequently declined the offer. As of
February 2013, approximately 17 percent of the project positions were vacant, including the
chief of party position.

URC reported that the compliance deliverables—designed to measure the extent to which
materials and training were being used—were late because URC spent the first 2 years
developing and providing them. However, during that same period, URC developed multiple
resources for health centers and provided multiple trainings on those resources. While URC
officials conducted an initial baseline assessment of centers in September 2011 and another
mini-assessment in October 2012, those assessments did not review the actual effect of
materials or training, nor did they identify areas for potential improvement.

As a result of these delays, there is an increased risk that remaining deliverables may be
implemented poorly or not at all if URC rushes to make up for lost time. Further, because URC
had not yet reviewed the overall effect of deliverables, neither it nor the mission had the
information necessary to adjust already-implemented deliverables. Therefore, we make the
following recommendation.

   Recommendation 1. We recommend that USAID/Iraq prepare a written evaluation of
   project deliverables to determine the extent to which they can be accomplished in the
   time remaining, and adjust the deliverables and budget based on the results of the
   evaluation.

Steps to Promote Sustainability in
Kurdistan Were Limited
USAID’s Automated Directives System (ADS) 201, “Planning,” emphasizes that missions should
use the resources of host countries and others to maximize the impact of development
assistance, and asks missions to consider social and cultural soundness in program design.
Furthermore, according to ADS 202.3.5.3, “Supporting Coordination and Collaboration with
Partners, Host Country Entities, Other Donors, and Customers,” USAID has a critical role as a
coordinator with respect to its partners and host-country governments.

Some of the primary health care project’s activities were carried out in Kurdistan, a federal
region in northern Iraq. The region has its own government, and the Iraqi Constitution
recognizes its language—Kurdish—as one of the nation’s official languages. However, the
project’s sustainability in this region is questionable because the project had not accommodated
the regional language needs. The approved year 1 work plan notes that training curricula would
be translated into Kurdish, and the project’s weekly reports refer to Kurdish translation as early
as January 2012. However, as of March 2013, URC had not finished translating any of the
handbooks, guidelines, or standard operating procedures. In addition, posters and brochures
providing information on health subjects and patient rights for primary health care center clients
were translated and printed, but had not yet been delivered. URC officials reported that they did
not add a full-time Kurdish translator to provide the needed translation until after the




                                                                                                6
November 2012 contract modification approved this additional position. A full-time translator
was hired in December 2012—20 months into the project.

KRG officials and primary health care center staff at all four sites the audit team visited said the
materials and training needed to be in Kurdish. The officials added that project trainers should
also be able to provide training in Kurdish, not just Arabic or English. This concern was echoed
by USAID/Iraq’s field monitors, who observed training conducted in Kurdistan; in multiple
reports submitted to USAID/Iraq, these monitors said participants did not speak Arabic and had
to rely on fellow trainees for interpretation.

These problems occurred because USAID/Iraq’s contract with URC did not include a
requirement to make materials available, as needed, in Kurdish, or that training be provided in
the appropriate language. Mission officials could not explain to the audit team why this
happened because none had been at the mission when the contract was created. Further, URC
officials explained that trainings and materials were available in English because many primary
health care center providers in the region speak English; however, information provided by
center employees and observations of USAID/Iraq field monitors indicated that this was not
sufficient.

Not accounting for the needs of beneficiaries limits the project’s success and sustainability in
Kurdistan. While URC officials said the materials are in the process of being translated, they
have been reporting similar efforts to translate materials since early in the project, with no actual
results to date. Therefore, we make the following recommendation.

    Recommendation 2. We recommend that USAID/Iraq issue a technical directive to
    University Research Company to (1) expedite the translation of project materials and
    training curricula into Kurdish, prioritizing those most needed, and (2) develop a protocol
    to confirm that future products are translated as appropriate and that interpretation is
    available for trainees if needed.

Responsibility for Tracking Cost
Share Contributions Was Not
Formalized
By law, the Iraqi Government must contribute additional funds equal to at least 50 percent of
USAID’s investment for projects that directly benefit, involve, or are in the direct interests of the
Iraqi Government, excluding project costs related to security.4 The contribution can be cash or
in-kind support and can be provided at any point during the project. According to USAID/Iraq’s
mission order (103.3.5.1) on the implementation of the cost share requirement, this helps
generate and maintain a host country’s commitment to projects and facilitates stronger
relationships with the host-country counterpart. While the relevant government must report on
its cost share contribution, the mission order also specifically allows the mission to require
contractors to track and report on these contributions. USAID/Iraq is directed by law to withhold
additional funding for the project if MOH does not contribute its share.



4
 Public Law 112-74, Section 7041(d)(1), requires that foreign assistance for Iraq use Iraqi entities to the
maximum extent possible and states that foreign assistance must comply with the State Department’s
guidelines related to U.S. Government-funded civilian assistance projects.


                                                                                                         7
In September 2011 USAID/Iraq and the Iraqi MOH signed a memorandum of understanding in
which MOH agreed to contribute additional funds equal to at least 50 percent of the project’s
total costs. According to mission officials, MOH agreed to provide $56 million during the contract
period and an additional $14 million to activities after it ends.

URC has tracked and reported on MOH’s contribution at USAID/Iraq’s request, in part because
it had access to the relevant data and because URC officials considered this tracking to be part
of successful project implementation. As of March 2013, the majority of MOH’s contributions
were related to training activities. Given that URC collects information on trainings as part of its
contract deliverables and indicators, collecting information to calculate the MOH cost share
required relatively little additional effort on URC’s part.

However, when the mission modified the contract in November 2012, USAID added a
requirement that URC procure medical equipment for 36 model centers from the 360 targeted
by the project. In addition to the equipment URC will procure, MOH also agreed to provide
equipment to all 360 centers. According to USAID/Iraq officials, this procurement will account for
the bulk of MOH’s cost share contribution.

While URC’s contract has no project deliverables related to the MOH-procured equipment, URC
officials reported that employees will track cost information on the equipment cost share for
USAID/Iraq because they consider it to be part of ensuring the project’s overall value. However,
there is no provision in URC’s contract requiring it to do this, and tracking the delivery and use
of the equipment has the potential to use substantial project resources and to divert staff from
other contractually required deliverables. Mission officials could not provide the audit team any
information on why the contract did not formalize tracking of MOH's cost share contribution in
the first place because they were not at the mission when it was signed.

The equipment should allow center employees to use the skills gained through project-
supported trainings and use the project’s resources better —thereby contributing to overall
sustainability. In addition, officials from a nonmodel primary health care center said the
equipment was important to their center and credited the project, not MOH, for getting it. So not
providing this equipment could reflect poorly on the project and USAID.

While MOH is responsible for reporting its own cost share contribution, given the importance of
the project’s equipment component and the potential drain related to using project resources
designed to support other activities to track the MOH cost share, we make the following
recommendation.

   Recommendation 3. We recommend that USAID/Iraq modify its contract with University
   Research Company to incorporate tracking of Ministry of Health’s cost share.

Some Centers Did Not Know About
Equipment Assessments or Their
Purpose
ADS 202, “Achieving,” emphasizes the importance of maintaining open, frank communications
with host-country counterparts and partners. ADS 203, “Assessing and Learning,” notes that
part of learning is capturing and sharing “information and knowledge, including . . . findings from
evaluations, research, practice, and experience.”



                                                                                                  8
In preparation for the November 2012 contract modification, URC and MOH conducted
assessments of the 360 primary health care centers the project targeted to identify equipment
needs. Any necessary equipment would then be purchased by either URC or MOH. According
to its weekly reports to USAID/Iraq, URC analyzed the data collected from the centers and
presented the completed assessments to MOH in November 2012.

During the audit site visits the team conducted in March 2013, some center directors and
employees were either unaware of the assessments or did not understand their purpose and the
results. In two of four centers in northern Iraq, directors were not aware of the assessment or of
the efforts to procure equipment for their centers. Another director knew about the assessment
and had helped the assessment team; however, he did not receive the results or information on
what they meant for the center. A director of a center in southern Iraq said she was aware of the
assessment and had received the results. However, after receiving them, she took steps to get
the equipment identified, indicating she did not know that either the project or MOH intended to
get it, though this was the purpose of the assessment.

Some project employees were not clear on the scope and results of the assessments, though
URC officials said they had received the information. During site visits in one region, the
project’s regional office employees initially believed that equipment needs had been assessed
only at the 36 model centers and were not familiar with the results of the assessments of the
other centers. While these employees were new to the project, this could indicate problematic
communication between staff at the main office in Baghdad and the regional offices.

The lack of clarity on the purpose and results of the equipment assessment resulted from poor
communication between URC and MOH. URC officials said they shared the results with MOH in
November 2012 and with the 36 model centers in March 2013. However, URC did not
immediately and directly share the results with the other 324 centers or verify that MOH did so.
Instead, URC officials said they would be willing to assist in sharing the results of the
assessment with these centers if MOH asked them.

URC officials said they planned to visit the 36 model centers in late March 2013 to confirm that
the identified equipment was still needed. However, despite MOH’s goal of procuring equipment
for the remaining 324 centers, it is unclear whether the ministry will take steps to share
assessment results with them. Making sure that clear information was provided at the start of
the process and soliciting feedback from the centers on the results of the assessment could
help confirm that the results accurately reflect centers’ needs. Therefore, we make the following
recommendation.

   Recommendation 4. We recommend that USAID/Iraq issue a technical directive
   requiring University Research Company to provide officials at all surveyed primary
   health care centers with the written results of the center’s assessment, information on
   the planned use of the assessment results, and names of contacts with the project and
   the Ministry of Health to be sure that they are notified of significant changes at the
   primary health care center level.

USAID/Iraq Oversight of Contract
Administration Was Weak
USAID/Iraq’s contract with URC laid out multiple regulations and requirements, and stated that
the evaluation of URC's performance was to be based in part on its understanding of and



                                                                                                9
adherence to USAID regulations and procedures. According to the contracting officer’s
representative’s (COR’s) designation letter, the COR is responsible for monitoring URC’s
performance and verifying any progress toward contract goals. Further, the designation letter
notes that COR files are a key monitoring tool, noting, “Inadequate files will impede . . .
successor [CORs’] ability to manage the contract and therefore may jeopardize the program for
which it was awarded.”

USAID/Iraq found problems with URC’s contract administration, particularly related to staffing,
and took steps in late 2012 to address them. However, the audit team observed other instances
in which the mission did not identify or address URC’s failure to comply with contract
requirements or pay attention to administration.

	 Compliance with training reporting requirements. ADS 253, “Participant Training for
   Capacity Development,” requires that information about any participant training exceeding
   2 days or 16 hours, including in-country training, be entered into USAID’s Training Results
   and Information Network (TraiNet) within 30 days of the end of each federal FY quarter. In
   November 2012 USAID/Iraq issued a mission order reinforcing the TraiNet requirements. A
   reference to ADS 253 and these requirements were included in URC’s contract. However,
   URC did not enter any information on trainings and trainees in TraiNet, despite having
   trained staff from more than 330 centers as of December 2012. Further, during interviews
   with the audit team, URC officials said they were aware of the requirement, but had no
   reason for not complying.

	 Submission of project materials to USAID database. ADS 540, “USAID Development
   Experience Information,” and URC’s contract required that selected project reports and
   products be submitted to the Agency’s Development Experience Clearinghouse, which
   provides “accurate, comprehensive, and timely information on the Agency’s development
   experience.” URC’s contract required it to submit final copies of all original quarterly and
   annual reports, as well as evaluations, studies, and assessments, to the clearinghouse
   when it submitted the final versions of these documents to the COR. However, as of
   January 2013, only one document—a map of the 360 centers—was available in the
   clearinghouse, despite the fact that URC had submitted multiple final reports to the COR.

	 Correct invoice references. URC’s contract required it to provide expenditure information
   broken down by budget categories. In November 2012 the project contract was modified to
   reflect changes to project deliverables and deadlines. As part of these changes, the project’s
   budget also was modified. However, as of January 2013, URC had not yet adjusted the
   budget information included in its monthly invoices to USAID. After the audit team found this
   problem, URC agreed to take steps to correct the issue and use the appropriate project
   budget in upcoming invoices.

USAID/Iraq did not document significant project decisions consistently, and staff members did
not know about discrepancies between deliverable and indicator units of measure. Further, they
could not always respond to the audit team’s questions about changes that had taken place
during the project.

	 Key documentation. The audit team found evidence in the project files that the COR
   reviewed documents and activities. However, certain key documents and information
   providing historical context were difficult to locate. For example, we could not find
   documentation showing that the COR gave final approval of deliverables and required



                                                                                              10
   reports, and final versions of approved documents could not be identified easily in the hard
   copy or electronic files.

	 Deliverable and indicator unit of measure. Under the contract, URC provided training to
   primary health care center employees on quality control standards and clinical protocols,
   and it reported to USAID/Iraq on the number of centers trained as one of its deliverables.
   However, the audit team determined that while the deliverable was designed to measure the
   number of centers trained, the related performance management plan indicator measured
   the number of center employees trained. Mission staff members were not aware of this
   discrepancy and agreed that it should be addressed.

	 Project performance periods. After the former COR left in February 2013, remaining
   USAID/Iraq officials were not clear on the project’s performance periods and how the
   change to a FY cycle affected the reporting on project deliverables and targets. They
   provided an initial explanation, but contacted URC for information to clarify their
   understanding of the revised reporting periods. The contracting officer reviewed the contract
   and contract negotiation documents with the audit team and confirmed that the contract
   included no clear explanation of the revised reporting periods and how they related to the
   deliverable reporting periods.

The problematic oversight of URC’s contract administration, lack of key documentation, and
confusion on project measures and performance periods was caused by multiple factors, which
are listed below.

	 Required reporting. Officials from USAID/Iraq’s Capacity Building Office, including the
   former, current, and proposed COR, were not aware of the TraiNet requirement and
   believed that in-country training did not have to be entered into this database. This was
   despite clear language in the mission order stating that contractors, including URC, are
   required to report on in-country training, and that CORs are responsible for monitoring
   compliance with this requirement.

   Similarly, USAID/Iraq officials were not aware that URC was required to submit information
   to the Agency's clearinghouse regularly; they believed submission was only required at the
   end of the project. This was despite inclusion of the required time frame for submissions in
   the contract.

	 Staffing changes. Between October 2012 and March 1, 2013, the mission decreased its
   number of occupied staff positions from 95 to 62, a 35 percent drop. This included a
   reduction from 32 to 20 U.S. direct hire positions, 7 to 5 U.S. personal service contractor
   positions, and 25 to 6 third-country national positions. The Capacity Building Office, which
   was responsible for the project, was reduced from 10 to 8 employees—a decrease of
   20 percent—and the majority left at the end of February 2013. In addition to the primary
   health care project, the office is responsible for two other projects, worth $233 million; the
   office’s projects account for 36 percent of the mission’s total portfolio.

   While USAID/Iraq is used to frequent turnover, the scale and speed of the downsizing was
   unusual. The mission did not know the total number of employees departing until
   December 2012, and that left little time to train those who remained. The COR—the second
   one for the project—left as part of the downsizing, and so did the health team lead who
   provided significant support. The COR reported making some efforts to share information on



                                                                                              11
   the project with a potential future COR. However, when the COR departed post, the person
   identified to take on the COR role was out of the country, so the office director was
   designated the project COR. While the office director had been involved with the project
   since its inception, a staff person at this senior level would not have the same level of
   project knowledge as a COR.

	 Poor project files. The COR in place through February 2013, who had been a COR for
   more than 9 years, confirmed that he did not put documentation in the project files showing
   that deliverables and reports had received final approval. He acknowledged that maintaining
   this documentation, along with the final approved version of each deliverable, would have
   been helpful to future CORs.

   Documents in the project’s electronic files were kept in multiple and redundant folders, with
   no way to differentiate drafts from finals. According to USAID/Iraq officials, all key project
   documents should be found in an electronic folder entitled “PII” on the relevant technical
   office’s network drive.

   However, a review of that folder found that many key documents were not included or
   updated. As of March 7, 2013, no weekly reports past January 2013 were in the folder.
   Similarly, while the project was into its third year, only the first year’s work plan was in the
   folder. Additional electronic files were maintained in both a project-specific folder on the
   relevant office’s network drive and on the former COR’s personal network drive.

   Prior to departing post, that COR transferred project files from the personal drive to the
   office’s project folder. However, documents were moved wholesale into an electronic project
   folder, rather than being filed in the appropriate existing folders. As a result, the electronic
   project folder contained duplicate documents, with little or no way to determine which
   documents were final, which were in draft, or which were no longer relevant.

	 Modified reporting periods. In November 2012, the project’s fourth contract modification
   changed the project year from March-February period to an October-September period,
   consistent with the federal fiscal year. However, the contract and contract negotiation
   documents did not clarify how this change would affect project reporting. Further, the
   contract laid out timelines for deliverables, but did not show what month these revised
   timelines referred to; rather, the contract simply referenced “Year 1” through “Year 4.”

   Other documents were equally unclear on project periods and reported on several in
   one document. For example, in its FY 2012 annual report, URC reported information for
   three different reporting periods: (1) the narrative reported on activities for the period
   April 2012 to September 2012, (2) the deliverable results reported for the period March 2011
   to September 2012, and (3) the project indicators and results reported for the period
   October 2011 to September 2012. The performance management plan submitted in draft in
   February 2013 referred to targets for Year 1, FY 2012, FY 2013, and FY 2014, but provided
   no information on what period was included in Year 1. When combined with the staffing
   changes and poor project files previously discussed, the lack of clarity in the contract on the
   modified reporting periods caused confusion.

Not ensuring that URC complied with the contract’s reporting requirements limits USAID’s ability
to learn from project activities, and provide accurate, timely information to Congress and other
interested parties. Confirming that URC provides accurate information is integral to ensuring
that the project will be monitored effectively. Project files that are clear, complete, and


                                                                                                12
accessible are integral to ensuring continuity of oversight and proper accountability over
USAID/Iraq projects. Consequently, we make the following recommendations.

   Recommendation 5. We recommend that USAID/Iraq implement procedures to confirm
   that (1) University Research Company is entering required data on in-country training in
   the Training Results and Information Network and (2) mission staff members are
   monitoring that activity.

   Recommendation 6. We recommend that USAID/Iraq implement procedures to confirm
   that (1) University Research Company is submitting required documents to the USAID
   Development Experience Clearinghouse and (2) mission staff members are monitoring
   submission.

   Recommendation 7. We recommend that USAID/Iraq issue a technical directive
   clarifying the expected reporting periods for project plans and reports.

   Recommendation 8. We recommend that USAID/Iraq document its review of the
   Primary Health Care Project in Iraq’s electronic and hard copy files to confirm that
   required documents are in the official file, duplicate documents are removed, and draft
   and final documents are identified clearly.

Performance Management and
Annual Work Plans Were Not
Finalized
URC’s contract required it to submit an annual work plan with monthly activities and tasks to be
undertaken by the contractor no later than “30 days prior to the start of the next year of
performance.” The contract also noted that the performance management plan—a plan
designed to allow both USAID and URC to monitor project progress—is subject to annual
review and updating.

Despite these requirements, as of March 2013 URC did not have an approved work plan in
place, and the COR had not approved a revised performance management plan.

Work Plan. Five months into FY 2013, URC had not yet developed an annual work plan for the
project’s third year, even though the second year’s original plan ended in February 2013.

According to URC officials, when the fourth contract modification was signed and the project’s
reporting period shifted to the federal fiscal year, the project had an annual work plan in place
covering March 2012 to February 2013. Because of this change, USAID/Iraq advised URC to
submit a supplemental work plan covering March 2013 to September 2013 and gave URC until
March 30, 2013, to submit a work plan. However, even under the original reporting period, a
revised annual plan should have been submitted no later than January 2013—30 days before
the end of the existing one. While URC anticipated submitting the new plan by the end of
March 2013, when we did our audit the project was implementing activities with no agreed-upon
work plan in place.

Performance Management Plan. Because the November 2012 contract modification added
and deleted deliverables, URC submitted a revised performance management plan in early
February 2013. While USAID/Iraq officials reviewed the document, they did not anticipate that it


                                                                                              13
would be approved before mid-March 2013. They said the delay occurred because the
monitoring and evaluation specialist left the mission as part of the reduction in staff. USAID/Iraq
planned for this person to return to Iraq as an employee of the mission’s monitoring and
evaluation contractor. Once that happened, the mission would once again review the plan and
finalize it.

However, since the COR is responsible for approving the performance management plan, the
mission could have finalized it without waiting for the monitoring and evaluation specialist to
return. Annual work and performance management plans, both required by the contract, are key
elements in ensuring that USAID/Iraq can monitor URC’s progress toward contract deliverables
effectively and consistently. Further, given the significant staffing transitions within URC and the
mission, these plans provide an agreed-upon guide for activities.

Therefore, we make the following recommendation.

   Recommendation 9. We recommend that USAID/Iraq direct University Research
   Company in writing to finalize the fiscal year 2013 annual work plan and revised
   performance management plan, and that USAID/Iraq document the approval of these
   plans within 30 days of their submission.




                                                                                                 14
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Iraq agreed with all nine recommendations. We have
acknowledged management decisions for Recommendations 1, 3, and 8. Final action has been
taken on Recommendations 2, 4 through 7, and 9, and these are closed upon issuance of the
audit report. We agreed with all decisions.

Recommendation 1. USAID/Iraq has decided to end the project 6 months earlier than
planned—in September 2014—and mission officials are working with URC to adjust remaining
project deliverables based on this revised schedule. The target completion date for this action is
August 3, 2013. As a result, we acknowledge that the mission made a management decision on
Recommendation 1.

Recommendation 2. USAID/Iraq issued written instructions to URC in May 2013 directing it to
expedite the translation of materials and curricula into Kurdish and to develop a protocol to
confirm that future products are translated and that interpretation is available for trainees as
needed. Based on the mission’s comments and supporting documentation provided, we
acknowledge that the mission made a management decision and final action has been taken on
Recommendation 2.

Recommendation 3. USAID/Iraq issued a letter notifying URC of its intention to modify the
contract to require URC to track the Iraqi Government cost share contribution. The target
completion date for this action is August 3, 2013. Therefore, we acknowledge that the mission
made a management decision on Recommendation 3.

Recommendation 4. USAID/Iraq issued written instructions to URC in May 2013 to
disseminate the written results of the equipment assessments for all surveyed centers, along
with information on the actions planned as result of the survey and points of contact at both
URC and MOH. Based on the mission’s comments and supporting documentation provided, we
acknowledge that the mission made a management decision and final action has been taken on
Recommendation 4.

Recommendation 5. In May 2013 USAID/Iraq registered URC in the TraiNet system and
issued instructions to URC to enter in-country training data and report on the data entry in its
quarterly reports. The mission also issued instructions to the mission’s Capacity Building Office
staff to monitor TraiNet data entry. Based on the mission’s comments and supporting
documentation provided, we acknowledge that the mission made a management decision and
final action has been taken on Recommendation 5.

Recommendation 6. In May 2013 USAID/Iraq directed URC to enter all relevant reports into
the Development Experience Clearinghouse and instructed mission staff members to monitor
URC’s information entry. Based on the mission’s comments and supporting documentation
provided, we acknowledge that the mission made a management decision and final action has
been taken on Recommendation 6.




                                                                                               15
Recommendation 7. USAID/Iraq issued instructions to URC in May 2013, clarifying the
reporting periods for project plans and reports. Based on the mission’s comments and
supporting documentation provided, we acknowledge that the mission made a management
decision and final action has been taken on Recommendation 7.

Recommendation 8. USAID/Iraq’s Capacity Building Office—responsible for this project—has
completed a review of the electronic and hard copy project files to confirm that all required
documents were in the official file, duplicates were removed, and final documents were
identified clearly. According to mission officials, the mission’s records and file management
specialist will verify this review. The target completion date for this action is June 30, 2013.
Therefore, we acknowledge that the mission made a management decision on
Recommendation 8.

Recommendation 9. URC submitted a revised work plan, based on the new project end date,
and a revised performance management plan, both of which USAID/Iraq approved in May 2013.
Based on the mission’s comments and supporting documentation provided, we acknowledge
that the mission made a management decision and final action has been taken on
Recommendation 9.




                                                                                             16
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. They require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions, in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Iraq’s Primary Health Care Project
in Iraq was achieving its goals of supporting management systems and processes, delivering
quality care, and expanding community partnerships. The mission awarded URC a 4-year
contract for approximately $74.9 million on March 1, 2011. As of December 31, 2012,
USAID/Iraq had obligated approximately $72.9 million and disbursed about $15.7 million. The
audit team tested $801,197, or 5 percent, of that disbursement through site visits and testing
project deliverables.

The audit covered the period from the project’s start—March 2011—through
December 31, 2012, and considered events occurring through fieldwork, which ended in
April 2013. In planning and performing the audit, we assessed management controls related to
documentation and data verification, reporting, and establishment and review of contract
deliverables and indicators. We assessed the following significant controls: the mission’s
performance management plan; annual work plans; data quality assessments; annual,
quarterly, and weekly reports; and URC’s contracts, including contract modifications.

We conducted audit fieldwork at USAID/Iraq and URC offices in Baghdad. We visited centers in
the Governorates of Baghdad, Erbil, and Basrah. Audit work took place from February 24 to
April 3, 2013.

Methodology
To answer the audit objective, we interviewed personnel from USAID/Iraq and URC, as well as
MOH and Kurdish officials. We reviewed reports and files that the mission and URC maintained
as part of their project monitoring activities. We obtained an understanding of the project and
how USAID/Iraq monitored and measured results by reviewing performance management
plans, annual work plans, site visit documentation, and annual, quarterly, and weekly progress
reports. We also reviewed project oversight, performance measures, and data quality
assessments. Furthermore, we reviewed applicable laws and regulations and USAID policies
and procedures regarding the project, such as contract and modifications, ADS Chapters 201
(“Planning”), 202 (“Achieving”), 203 (“Assessing and Learning”), 253 (“Participant Training for
Capacity Development”), and 540 (“USAID Development Experience Information”), and
USAID/Iraq mission orders related to the Iraqi Government’s cost share and participant training
requirements.

To assess whether the project was achieving its objective, we validated reported results for
40 contract deliverables and 25 project indicators covering the three components. We



                                                                                            17
judgmentally selected deliverables and indicators for which results were expected during the
project’s first 2 years.

We validated URC’s reported results using supporting documentation such as finalized
handbooks and clinical guidelines, training attendance sheets, and observations during site
visits. The audit team considered deliverables and indicators on track if the verified results were
within 10 percent of the project’s first- and second-year targets. We consider the data reliable
for answering the audit objective.

We conducted site visits to a judgmental sample of 12 of 360 centers participating in the project,
including 5 of 36 model centers (14 percent). They were located in three governorates—one in
southern Iraq (Basrah), one in central Iraq (Baghdad), and one in the north (Erbil). To select the
sites, we considered the center staff trained in each center as of January 2013 and any overlap
in centers with prior USAID/Iraq health projects. Selection of sites was limited to governorates
that were reasonably accessible, given security considerations. During site visits, we verified the
existence of deliverables and compliance with USAID branding requirements. In addition, we
considered human trafficking requirements to note any evidence of noncompliance. We
interviewed beneficiaries to determine whether the project was meeting their needs and to learn
about their experiences with URC and USAID/Iraq. The results of these site visits cannot be
generalized to all project activities and sites.




                                                                                                18
                                                                                       Appendix II



MANAGEMENT COMMENTS 



                                                                    June 2, 2013

MEMORANDUM
(UNCLASSIFIED)


TO:            Catherine Trujillo, Regional Inspector General/Cairo

FROM:          Thomas H. Staal, USAID/Iraq Mission Director /s/

SUBJECT:       Management Response to Draft Audit of USAID/Iraq’s Primary
               Health Care Project in Iraq
               Report No. 6-267-13-00X-P

Thank you for the opportunity to comment on the draft audit. USAID/Iraq recognizes the value
of this audit as a management tool to further strengthen our programs, and we extend our
appreciation to the Regional Inspector General/Cairo for the cooperation exhibited throughout
the audit.

The audit report confirmed the development hypothesis of the Primary Health Care Project
(PHCP) and showed that, despite the delay in achieving some of the deliverables, the project is
achieving its main goal to improve the access and quality of primary health care services in Iraq.
We agree with the nine recommendations in the report, which we note are largely administrative
rather than programmatic. We have completed implementation of seven of the recommendations
at this time and will implement the last two by August 3, 2013.

In spite of the difficult operating environment in Iraq and the historical weak capacity of the
public health sector, PHCP has made real progress. The Ministry of Health (MOH) now
recognizes the importance of primary health care centers to improve the quality and access of
healthcare, and has demonstrated commitment to replicate USAID-funded model clinics.

On May 22, 2013, the Mission completed an in-depth, comprehensive review of PHCP’s
performance to determine the most appropriate way forward in accordance with the glide path:

   	 In accordance with the glide path, the project will be terminated six months earlier than
      originally scheduled. The project will now end in September 2014 instead of March
      2015.

                                                                                                  19
                                                                                        Appendix II


   	 Make no further obligations under the contract, de-scope and refocus project deliverables
      thereby lessening the management burden. These changes will be documented in a
      contract modification to be completed by August 3, 2013. Cementing the sense of
      ownership of local counterparts and transitioning responsibility for activities to the MOH
      will be the main goal of the project during the remaining implementation time.

The Mission has also taken the following steps to strengthen effective management and
oversight. Specifically, the Mission has:

      Engaged the USAID Global Health Office to provide virtual and in-country intermittent
       assistance.
      Decided to assign additional activity management responsibilities to two incoming health
       officers in Erbil and in Basra.
      Continued to engage the Albania Mission for intermittent assistance, which has provided
       a health specialist to the Iraq Mission for the last eight months.
      Continued the training and mentoring of its six Capacity Building Office field monitors
       in the area of project monitoring and oversight.

The proposed contract modification will include the following programmatic shifts to strengthen
the effectiveness and impact of the project:

      Assist the MoH to review the basic primary health care package available to clinics and
       identify areas for improvement.
      Execute plans to ensure the sustainability of the improvements achieved through USG
       support in the health sector.

Below, please find detailed description of how the Mission plans to address the audit
recommendations:

Recommendation 1. We recommend that USAID/Iraq prepare a written evaluation of project
deliverables to determine the extent to which they can be accomplished in the time remaining,
and adjust the deliverables and budget based on the results of the evaluation.

Response: The Mission agrees with this recommendation. Starting May 6, USAID and URC
held discussions on the status of project deliverables in view of some changed parameters
pertaining to a lower budget and less implementation time available to the project. During the
PHCP’s portfolio review on May 22, 2013, the Mission, in view of the decision to limit the time
and budget of the project, decided to restructure the remaining deliverables to correspond to
these changes. Some deliverables scheduled for 2015 will be eliminated, and some will be
consolidated.

Target date for completion is August 3, 2013 with the finalization of a modification to the
contract.

Recommendation 2. We recommend that USAID/Iraq issue a technical directive to
University Research Company to (1) expedite the translation of project materials and training

                                                                                                20
                                                                                         Appendix II


curricula into Kurdish, prioritizing those most needed, and (2) develop a protocol to confirm that
future products are translated, as appropriate, and that interpretation is available for trainees, if
needed.

Response: The Mission agrees with this recommendation. During several meetings in March
and April 2013, the Contracting Officer Representative (COR) instructed URC to translate
project materials and training curricula in to Kurdish. On May 18, 2013, the COR issued written
instructions to University Research Company (URC) directing it to 1) be more responsive to the
needs of the Kurdish region, in terms of translating relevant documents into Kurdish and 2)
develop a protocol to confirm that future products are translated, as appropriate, and that
interpretation is available for trainees, if needed. URC acted on these instructions and is in the
process of putting in place a mechanism to hire short term translators in order to expedite such
translation (Attachment I).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 2 and final action has been taken. Therefore, we request the closure of
this recommendation upon issuance of this report.

Recommendation 3. We recommend that USAID/Iraq modify its contract with University
Research Company to incorporate tracking of Ministry of Health's cost share.

Response: The Mission agrees with this recommendation. On May 20, 2013 the Contracting
Officer sent a letter notifying the contractor that the contract will be modified to include a
provision requiring it to track Government of Iraq cost share contributions (Attachment II). This
provision will be incorporated into a contract modification by August 3, 2013. URC has been
tracking cost sharing of the Ministry of Health as part of normal reporting. The Regional Legal
Advisor opined that while such a provision is not legally required in order to have the
implementing partner report on cost share, the provision will serve to clarify expectations on
tracking and reporting on cost share. Partial action in the form of the notice of impending
change to the contract under this recommendation is complete.

Target date for completion is August 3, 2013.

Recommendation 4. We recommend that USAID/Iraq issue a technical directive requiring
University Research Company to provide officials at all surveyed primary health care centers
with the written results of the center's assessment, information on the planned use of the
assessment results, and names of contacts with the project and the Ministry of Health to be sure
that they are notified of significant changes at the primary health care center level.

Response: The Mission agrees with this recommendation. On May 18, 2013, the COR directed
URC to disseminate the written results of the assessments undertaken for all surveyed centers,
actions planned as a result of these surveys and the names of contacts with the project and the
Ministry of Health (Attachment III).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 4 and final action has been taken. Therefore, we request the closure of


                                                                                                  21
                                                                                       Appendix II


this recommendation upon issuance of this report.

Recommendation 5. We recommend that USAID/Iraq implement procedures to confirm that (1)
University Research Company is entering required data on in-country training in the Training
Results and Information Network and (2) mission staff members are monitoring that activity.

Response: The Mission agrees with this recommendation. On April 7, 2013, the COR issued
instructions to URC to enter in-country training data onto the Training Results and Information
Network (TraiNet). The COR registered PHCP in the TraiNet system in May, and data is being
collected by URC to be entered. The CBO Office Director issued instructions to staff to monitor
the entry of data on May 21, 2013 (Attachment IV).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 5 and final action has been taken. Therefore, we request the closure of
this recommendation upon issuance of this report.

Recommendation 6. We recommend that USAID/Iraq implement procedures to confirm that (1)

University Research Company is submitting required documents to the USAID 

Development Experience Clearinghouse and (2) mission staff members are monitoring

submission. 


Response: The Mission agrees with this recommendation. On April 5, 201, the Mission issued
oral instructions to URC to upload all reports onto the Development Experience Clearinghouse
website, URC had uploaded all relevant reports onto the system on April 9, 2013. These
instructions were reiterated in writing on May 21, 2013. Instructions to staff to monitor the entry
of data were issued on May 21, 2013 (Attachment IV).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 6 and final action has been taken. Therefore, we request the closure of this
recommendation upon issuance of this report.

Recommendation 7. We recommend that USAID/Iraq issue a technical directive clarifying the
expected reporting periods for project plans and reports.

Response: The Mission agrees with this recommendation. On May 7, 2013, the Contracting
Officer issued instructions to URC clarifying the reporting periods for project plans and reports
(Attachment V).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 7 and final action has been taken. Therefore, we request the closure of this
recommendation upon issuance of this report.

Recommendation 8. We recommend that USAID/Iraq document its review of the
Primary Health Care Project in Iraq’s electronic and hard copy files to confirm that required
documents are in the official file, duplicate documents are removed, and draft and final
documents are identified clearly.


                                                                                                22
                                                                                        Appendix II



Response: The Mission agrees with this recommendation. On May 30, 2013 the Capacity
Building Office (CBO) finalized its review of all electronic and hard copy files in the various
project folders and Mission drives, confirming that required documents are in the official file,
duplicate documents are removed, and draft and final documents are identified clearly. This
will be verified by the Mission’s records and file management specialist.

Target date for completion is June 30, 2013.

Recommendation 9. We recommend that USAID/Iraq direct University Research
Company LLC, in writing, to finalize the fiscal year 2013 annual work plan and revised
performance management plan, and that USAID/Iraq document the approval of these plans
within 30 days of their submission.

Response: The Mission agrees with this recommendation. URC submitted the final draft of the
workplan and the performance management plan on April 30, 2013. However, given the
clarification of the reporting periods by the Mission, PHCP had to realign activities, indicators
and deliverables based on the new reporting guidelines. The revised work plan which follows
the Contracting Officer guidance was submitted to the Mission on May 19, 2013. On May 23,
2013 a realigned performance management plan was submitted. Approval of both the work plan
and the performance management plan was granted on May 30, 2013 (Attachments VI).

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 9 and final action has been taken. Therefore, we request the closure of
this recommendation upon issuance of this report.




                                                                                                   23
                                                                                                                      Appendix III



                          Status of Project Deliverables as of March 31, 2012 (Audited)
                                                                                                                             All or
                                                                                     Year 2       Year 2       Year 2
                                                                                                                           Portion of
                                                                       Expected    Target Met   Target Met   Target Met
Deliverable                                    Expected/Verifiable                                                        Deliverable
                        Deliverable                                   Completion     as of         as of        as of
 Number                                            Indicator                                                              Moved from
                                                                        Date(s)    September    December       March
                                                                                                                           Year 1 to
                                                                                     2012?        2012?        2013?
                                                                                                                            Year 2?
Component 1: Management Systems
           National technical advisory
  1.1.a    group for quality primary          Group established         Year 1        Yes          Yes          Yes           No
           health care established.
           Technical advisory group
           meets at least twice to work
  1.1.a1                                      Minutes of meetings       Year 1        Yes          Yes          Yes          n/a*
           on key primary health care
           issues by December 2011.
           Handbook of Quality
           Standards and Operational
   1.2a    Guidelines for Management of       Handbook completed        Year 1        Yes          Yes          Yes           No
           Primary Care Clinics
           developed.
           Training material to introduce
                                              Training material
  1.2a.1   management handbook                                          Year 1        Yes          Yes          Yes          n/a*
                                              completed
           developed.
                                              Number of
              Provide training (directly or   participating centers
              through MOH) on the             from which at least
                                                                        Years 1
   1.2c       management handbook for         one staff person has                    Yes          Yes          Yes           No
                                                                       through 4
              employees from at least         been trained on the
              360 participating centers.      management
                                              handbook




                                                                                                                               24
                                                                                                                         Appendix III


                                                                                                                                All or
                                                                                        Year 2       Year 2       Year 2
                                                                                                                              Portion of
                                                                          Expected    Target Met   Target Met   Target Met
Deliverable                                     Expected/Verifiable                                                          Deliverable
                       Deliverable                                       Completion     as of         as of        as of
 Number                                             Indicator                                                                Moved from
                                                                           Date(s)    September    December       March
                                                                                                                              Year 1 to
                                                                                        2012?        2012?        2013?
                                                                                                                               Year 2?
                                               Number of
                                               participating centers
              Technical assistance and
                                               from which relevant
              training on standard operating
                                               staff members (at least
              procedures for seven key                                     Years 2
 1.2c1 rev                                     two) have been                            No           Yes          Yes          n/a*
              management functions                                        through 4
                                               trained on the facility
              delineated in the management
                                               and equipment
              handbook.
                                               management standard
                                               operating procedures
              Put in place effective
              process/system to achieve        Report on number of
              and measure compliance with      participating centers       Years 2
  1.2d**                                                                                 No                        No           Yes
              quality standards for            compliant with             through 4
              seven key management             standards
              standards.
              Primary health care leadership   Training manual and
   1.3a       and management training          training schedule           Year 1        Yes          Yes          Yes          n/a***
              program established.             developed                                    No
                                               At least two managers
              Provide training (directly or
                                               from participating
              through MOH) to at least
                                               centers, districts, and
              2 leaders/managers from each
                                               governorates
              of the 360 participating                                     Years 1
   1.3c                                        successfully                              No           No           No            No
              centers and to at least                                     through 4
                                               completing the primary
              5 provincial-level MOH
                                               health care leadership
              leaders/managers from each
                                               and management
              of the 18 governorates.
                                               training
                                               Design and introduce
              Primary health care patient      standard patient
   1.4a                                                                    Year 1        Yes          Yes          Yes           No
              records system developed.        record system that is
                                               endorsed by MOH




                                                                                                                                   25
                                                                                                                         Appendix III


                                                                                                                                All or
                                                                                        Year 2       Year 2       Year 2
                                                                                                                              Portion of
                                                                          Expected    Target Met   Target Met   Target Met
Deliverable                                     Expected/Verifiable                                                          Deliverable
                       Deliverable                                       Completion     as of         as of        as of
 Number                                             Indicator                                                                Moved from
                                                                           Date(s)    September    December       March
                                                                                                                              Year 1 to
                                                                                        2012?        2012?        2013?
                                                                                                                               Year 2?
                                               Training material
              Train health care providers
                                               developed and training
              from 90 centers on the revised                               Years 1
  1.4a1                                        given to at least                         n/a          n/a          n/a         n/a****
              primary health care patient                                 through 3
                                               1 employee from 90
              records system.
                                               participating centers
                                               Percent of centers in
              Establish the patient records
                                               which patient records       Years 2
  1.4c**      system in 60 percent of                                                    n/a          n/a          n/a         n/a****
                                               system is in place and     through 4
              participating centers.
                                               being used
Component 2: Quality Clinical Care
              Policies and Procedures for
                                               Number of policies
              Establishing National Primary
   2.1a                                        and procedures              Year 1        Yes          Yes          Yes           No
              Health Standards of Care
                                               developed
              developed.
              Twenty primary health care
                                               Clinical
              clinical standards/protocols                                 Years 1
   2.1c                                        protocols/standards                       Yes          Yes          Yes           No
              developed/updated and                                       through 3
                                               updated/revised
              tested.
              Handbook of Quality
              Standards and Operational
                                               Draft handbook
   2.2a       Guidelines for Clinical                                      Year 2        No           No           No           Yes
                                               completed
              Services Delivery in Primary
              Care Clinics developed.
              Training modules covering
              Handbook of Quality              First set of training
              Standards and Operational        modules and first draft
  2.2a.1                                                                   Year 2        No           No           No           n/a*
              Guidelines for Clinical          of handbook
              Services Delivery in Primary     completed
              Care Clinics developed.




                                                                                                                                  26
                                                                                                                           Appendix III


                                                                                                                                  All or
                                                                                          Year 2       Year 2       Year 2
                                                                                                                                Portion of
                                                                            Expected    Target Met   Target Met   Target Met
Deliverable                                       Expected/Verifiable                                                          Deliverable
                       Deliverable                                         Completion     as of         as of        as of
 Number                                               Indicator                                                                Moved from
                                                                             Date(s)    September    December       March
                                                                                                                                Year 1 to
                                                                                          2012?        2012?        2013?
                                                                                                                                 Year 2?
              In partnership with MOH, put
              an effective process/system in
                                                 Report on number of
              place to achieve and measure
                                                 participating centers
              75 percent compliance among
                                                 compliant with quality      Years 2
  2.2d**      participating centers with the                                               No           No           No           Yes
                                                 standards related to       through 4
              quality standards for seven
                                                 key services
              key clinical services in MOH’s
                                                 developed in year 1
              basic health service package
              for primary health care.
              In partnership with the MOH,
              put an effective provincial and
              clinical level supervision
                                                 Repot on number of
              process/system in place for                                    Years 2
  2.2e**                                         facilities implementing                   No           No           No            No
              75 percent of participating                                   through 4
                                                 supportive supervision
              centers according to quality
              standards in the clinical
              service delivery handbook.
              In partnership with MOH, put
              an effective referral
              process/system in place
                                                 Report on number of
              linking at least 75 percent of
                                                 facilities with an          Years 2
  2.2f** 	    participating centers with                                                   No           No           No            No
                                                 effective referral         through 4
              higher-level clinical facilities
                                                 system in place
              according to the quality
              standards in the clinical
              service delivery handbook.
              Primary health care quality
              improvement program                Quality improvement
   2.3a       developed (management,             model approved by           Year 1        Yes          Yes          Yes           No
              clinical, and community            MOH
              participation).




                                                                                                                                    27
                                                                                                                          Appendix III


                                                                                                                                 All or
                                                                                         Year 2       Year 2       Year 2
                                                                                                                               Portion of
                                                                           Expected    Target Met   Target Met   Target Met
Deliverable                                      Expected/Verifiable                                                          Deliverable
                       Deliverable                                        Completion     as of         as of        as of
 Number                                              Indicator                                                                Moved from
                                                                            Date(s)    September    December       March
                                                                                                                               Year 1 to
                                                                                         2012?        2012?        2013?
                                                                                                                                Year 2?
              First set of training modules
              for the Primary Health Care In‐   Training modules
   2.4a                                                                     Year 2        No           No           No           Yes
              Service Training Program          complete
              developed.
              Second set of modules for
              training program developed        Training modules
   2.4a                                                                     Year 2        No           No            No           No
              (training program development     complete
              is completed).
              Provide training in quality
                                                Report on number of
              standards and clinical
                                                relevant participating
              protocols (directly or through
                                                centers with at least
              MOH) in five or more of the                                   Years 2
   2.4c                                         one staff member                          No           No           No           Yes
              seven key clinical services for                              through 4
                                                trained on guidelines
              a minimum of 75 percent of
                                                developed under
              relevant clinical staff
                                                Deliverable 2.1c
              members.
              The current supervision           Revised supervision
   2.4d                                                                     Year 1        Yes          Yes          Yes          n/a*
              system is updated/revised.        system
              Provide training in supportive
              supervision (directly or          Percent of centers
              through MOH) for a minimum        with at least one staff     Years 2
   2.4d                                                                                   No           No           No           Yes
              of 75 percent of clinical- and    member trained in          through 4
              provincial-level MOH staff who    supervision
              have supervisory duties.
              The current referral system is    Updated/revised
   2.4e                                                                     Year 1        Yes          Yes          Yes          n/a*
              updated/revised.                  referral system
                                                Develop training
              Training materials to improve
  2.4e.1                                        materials on revised        Year 2        No           No           Yes          n/a*
              referrals developed.
                                                referral system
              Provide training in referrals     Percent of centers
              (directly or through MOH) for     with at least 1 staff       Years 2
   2.4e                                                                                   No           No           No           Yes
              relevant staff from a minimum     member trained in          through 4
              of 360 participating centers.     referrals


                                                                                                                                   28
                                                                                                                     Appendix III


                                                                                                                            All or
                                                                                    Year 2       Year 2       Year 2
                                                                                                                          Portion of
                                                                      Expected    Target Met   Target Met   Target Met
Deliverable                                    Expected/Verifiable                                                       Deliverable
                       Deliverable                                   Completion     as of         as of        as of
 Number                                            Indicator                                                             Moved from
                                                                       Date(s)    September    December       March
                                                                                                                          Year 1 to
                                                                                    2012?        2012?        2013?
                                                                                                                           Year 2?
              Provide training in quality
                                               Number of centers
              improvement (directly or
                                               with at least
              through MOH) for the quality                             Years 2
   2.4f                                        one quality                           No           No           No           Yes
              improvement team at a                                   through 4
                                               improvement team
              minimum of 360 participating
                                               trained
              centers.
              Research agenda for
                                               Research agenda
   2.5a       strengthening primary health                             Year 1        Yes          Yes          Yes           No
                                               completed
              care in Iraq developed.
              One study evaluating
              effectiveness of innovative
              models for primary care
                                               One study completed     Years 2
   2.5b       service delivery in Iraq                                               No           Yes          Yes           No
                                               and disseminated       through 4
              completed and disseminated
              (total of three throughout
              project).
              One study evaluating
              effectiveness of quality
              improvement activities in Iraq   One study completed     Years 2
   2.5c                                                                              No           Yes          Yes           No
              completed and disseminated       and disseminated       through 4
              (total of three for life of
              project).
              Preliminary needs assessment
              conducted for each of the
              36 centers, and individualized   Assessment report
   2.6a                                                                Year 2        No           Yes          Yes          n/a*
              work plans prepared detailing    completed
              steps needed to bring each
              center to the model standard.
              Contract with necessary local
              entities for procurement of                              Years 2
   2.6b                                        Contract awarded                      No           No           Yes          n/a*
              equipment awarded to                                    through 4
              centers.



                                                                                                                              29
                                                                                                                    Appendix III


                                                                                                                           All or
                                                                                   Year 2       Year 2       Year 2
                                                                                                                         Portion of
                                                                     Expected    Target Met   Target Met   Target Met
Deliverable                                  Expected/Verifiable                                                        Deliverable
                      Deliverable                                   Completion     as of         as of        as of
 Number                                          Indicator                                                              Moved from
                                                                      Date(s)    September    December       March
                                                                                                                         Year 1 to
                                                                                   2012?        2012?        2013?
                                                                                                                          Year 2?
Component Three: Community Partnerships
           National statement of patients’
                                           Patient rights charter
  3.1a     rights in primary health care                              Year 1        Yes          Yes          Yes           No
                                           completed
           developed.
           Handbook for Quality
           Standards and Operational
  3.2a     Guidance for Community          Handbook completed         Year 1        Yes          Yes          Yes           No
           Partnerships in Primary Health
           Care developed.
           Process/system in place to
                                           Report on number of
           receive, evaluate, and take
                                           local health
           action in response to
                                           committees activated
           client/community input                                     Years 2
  3.2b                                     to promote and use                       Yes          Yes          Yes           No
           regarding health in                                       through 4
                                           community
           accordance with the
                                           partnerships
           community partnerships
                                           handbook
           handbook.
                                           Number of
           Provide training (directly or   participating centers
           through MOH) on the             from which at least
           community partnerships          one employee has           Years 2
   3.2c                                                                             Yes          Yes          Yes          Yes
           handbook for personnel from a been trained on the         through 4
           minimum of 360 participating    community
           centers.                        partnerships
                                           handbook
           Develop a behavioral change
           communication strategy to
  3.2c1                                    Strategy developed         Year 1        Yes          Yes          Yes          n/a*
           promote primary health care
           services.




                                                                                                                             30
                                                                                                                                Appendix III


                                                                                                                                       All or
                                                                                               Year 2       Year 2       Year 2
                                                                                                                                     Portion of
                                                                                 Expected    Target Met   Target Met   Target Met
 Deliverable                                         Expected/Verifiable                                                            Deliverable
                           Deliverable                                          Completion     as of         as of        as of
  Number                                                 Indicator                                                                  Moved from
                                                                                  Date(s)    September    December       March
                                                                                                                                     Year 1 to
                                                                                               2012?        2012?        2013?
                                                                                                                                      Year 2?
                Put an effective
                                                     Report on number of
                process/system in place to
                                                     facilities in compliance
                achieve and measure
                                                     with the quality
                75 percent compliance among                                       Years 2
     3.2d**                                          standards delineated                       No           No           No           Yes
                participating centers with the                                   through 4
                                                     in the community
                quality standards delineated in
                                                     partnerships
                the community partnerships
                                                     handbook
                handbook.
* Deliverable not included in original contract.
** Deliverable measuring compliance and implementation.
*** Deliverable due in year 2, but achieved in year 1.
**** Deliverable only has a full length-of-project target.




                                                                                                                                         31
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

            http://oig.usaid.gov

